WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-7466
Charles L. Burgett, Petitioner,
v.
The General Store No. Two, Inc., et al., Respondent.
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of
certiorari unless one is requested by the Court.
Please enter my appearance as Counsel of Record for Respondents Thomas
Bethel, Terry Grimmett and Matthew Payne.
I certify that I am a member of the Bar of the Supreme Court of the United
States.
Signature:
Date:

April 14, 2021

Name:

D. John Sauer, Solicitor General
Office of the Attorney General
Supreme Court Building
P.O. Box 899
Jefferson City, MO 65102-0899
(573) 751-3321

A copy of this form has been served via U.S. Mail:
Ryan E. Karaim
Franke Schultz & Mullen, P.C.
8900 Ward Parkway
Kansas City, MO 64114

